February 7, 2011

STEVEN R. PHELPS
MANAGER, SOX MANAGEMENT CONTROLS AND INTEGRATION

SUBJECT: Interim Management Advisory – Fiscal Year 2011 Financial Testing
         Compliance Business Mail Entry Unit Oversight Reviews – Reading
         Business Mail Entry Unit, Reading, PA (Report Number FF-MA-11-021)


This report presents interim results for the U.S. Postal Service Office of Inspector
General’s (OIG) fiscal year (FY) 2011 review of the U.S. Postal Service Financial
Testing Compliance (FTC) group’s Business Mail Entry Unit (BMEU) testing at the
Reading BMEU, Reading, PA (Project Number 11BR004FF008), performed December
8, 2010. The Reading BMEU is in the Central Pennsylvania District of the Eastern Area.
At the conclusion of FY 2011, we will summarize the results for all interim reviews in a
report to Postal Service Headquarters.

To comply with Section 404 Sarbanes-Oxley (SOX) Act of 2002 requirements, the
Postal Service must report on the effectiveness of the agency’s internal controls to
ensure accurate financial reporting. It must submit an annual assessment to the Postal
Regulatory Commission which monitors and manages the Postal Service’s compliance
with SOX. The Postal Service established the FTC to conduct tests of key financial
reporting controls.

We conducted this oversight review in support of the independent public accountant’s
(IPA) reliance on Postal Service management’s testing and overall audit opinions on the
financial statements and internal controls over financial reporting. The IPA relies on the
Postal Service’s internal control testing to support the overall audit opinions.

The overall objective of our review was to evaluate whether FTC analysts properly
conducted and documented their examination of SOX financial reporting controls.

To perform this work, we observed FTC analysts conduct tests and reviewed their
supporting documentation. We performed this review from December 2010 through
February 2011 in accordance with the Council of the Inspectors General on Integrity
and Efficiency, Quality Standards for Inspection and Evaluation.




                                Restricted Information
Fiscal Year 2011 Financial Testing Compliance                                FF-MA-11-021
 Business Mail Entry Unit Oversight Reviews – Reading
 Business Mail Entry Unit , Reading, PA



Conclusion

Based on our review of FTC’s work, FTC analysts properly conducted and documented
their examination of key SOX financial reporting controls. See Appendix A for the results
of our review.

The interim FTC oversight review advisories will be issued to the SOX manager in final
format. At the conclusion of the fiscal year, the OIG will summarize the results of all its
FTC oversight reviews and include recommendations, if applicable, in a report to Postal
Service Headquarters management. Management agreed not to respond to the interim
reports but will have the opportunity to formally respond to the draft summary report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Guy Sergi, audit manager, at
781-904-8413, or me at 724-584-5630.


   E-Signed by Kevin Ellenberger
 VERIFY authenticity with ApproveIt
    Monday, 07 February, 2011



Kevin H. Ellenberger
Director, Field Financial – East

Attachments

cc:    Douglas G. Germer
       Corporate Audit and Response Management




                                                    2
                                         Restricted Information
Fiscal Year 2011 Financial Testing Compliance                                                    FF-MA-11-021
 Business Mail Entry Unit Oversight Reviews – Reading
 Business Mail Entry Unit , Reading, PA




                                                 APPENDIX A: REVIEW RESULTS

      Site Name                                                   Reading, PA
      Unit 10-Digit Cost Center Code                              4169280117
      Location Type                                               BMEU
      Scope Period Under Review                                   10/01/2010 thru 12/07/10
                                                                  Business Mail Review Topic 450000 dated
      FTC Review Program Version and Date                        11/24/2010
      FTC Team                                                    East




                                                                                                    Did FTC
                                                                                     Did FTC       adequately
                                                                    Did the OIG    perform the    document its
                                                                       have           step in         work
                                                Did FTC have        exceptions     accordance      performed     Did the OIG agree
                                                  exceptions         that FTC          to its        and the      with FTC’s site
FTC Review Step        FTC Review Step           in this step?       did not?       program?        results?          results?*
#/Control #              Description               (Yes/No)          (Yes/No)        (Yes/No)       (Yes/No)          (Yes/No)
450001/104CA63,                                       No                 No             Yes            Yes               Yes
104CA163             Mail Check-In/ Receipt
450002/104CA2            Mail Verification          No                No            Yes               Yes              Yes
450003/104CA65        Placarding/Induction          No                No            Yes               Yes              Yes
450004/104CA66             End-of-Day               No                No            Yes               Yes              Yes
                          Reconciliation
450005/104CA06          SOX Certification           No                No            Yes                Yes             Yes
450006/104CA1          Finalizing Postage           No                No            Yes                Yes             Yes
                           Statements
*Based on our review of FTC’s documentation posted to the Blue Share on January 5, 2011.



                                                                     3
                                                          Restricted Information
